April 29, 2020

VIA ELECTRONIC FILING SYSTEM
Mr. Scott S. Harris
Clerk
Supreme Court of the United States
1 First Street, N.E.
Washington, D.C. 20543

Cary Silverman
1800 K Street NW
Suite 1000
Washington, D.C. 20006
t 202.783.8400
d 202.662.4859
f 202.783.4211
csilverman@shb.com

Re: McDaniel v. Upsher-Smith Laboratories, Inc., No. 19-1246
Request for Extension of Time to File Brief in Opposition
Dear Mr. Harris:
I represent the Respondent in the above-referenced matter. Pursuant to Supreme
Court Rule 30.4 and the Court’s March 19, 2020 Order, I write to request a 30-day
extension of time in which to respond to the petition for writ of certiorari that was docketed
in this case on April 26, 2020.
Respondent’s brief in opposition is currently due on May 26, 2020. Due to the
difficulties and disruptions related to COVID-19, Respondent respectfully requests a 30day extension of time through and including June 25, 2020, in which to file the brief in
opposition. Counsel for Petitioner has been contacted and consents to this request.
Respectfully submitted,
/s/ Cary Silverman
Cary Silverman
cc: E. Kirk Wood
Counsel for Petitioner

4817-3399-8011 v1
ATLANTA | BOSTON | CHICAGO | DENVER | HOUSTON | KANSAS CITY | LO NDON | LOS ANGELES | MIAMI | ORANGE COUNTY | PHILADELPHIA | SAN FRANCISCO | SEATTLE | TAMPA | W ASHINGTON, D.C.

